   PRIORITIZATION OF AIRPORT
IMPROVEMENT PROGRAM FUNDING
     Federal Aviation Administration

     Report Number: AV-2008-002
     Date Issued: October 26, 2007
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Prioritization of Airport                                             Date:    October 26, 2007
           Improvement Program Funding
           Federal Aviation Administration
           Report Number AV-2008-002
  From:    Robin K. Hunt                                                              Reply to
                                                                                      Attn. of:   JA-10
           Acting Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Acting Federal Aviation Administrator

           This report presents the results of our audit of the Federal Aviation
           Administration’s (FAA) prioritization of grant funding in the Airport
           Improvement Program (AIP). The objectives of our audit were to (1) evaluate the
           effectiveness of FAA’s policies and procedures for ensuring that the highest
           priority airport improvement projects are funded and (2) review the funding for the
           three AIP set-aside programs to determine whether the funding levels were being
           met as required by law. We performed our audit from August 2006 through May
           2007, in accordance with generally accepted Government Auditing Standards as
           prescribed by the Comptroller General of the United States. Our scope and
           methodology are presented in the exhibit to this report.


           BACKGROUND
           The FAA is responsible for administering the AIP. The AIP supports the Nation’s
           airport system by providing funds primarily to enhance safety and security,
           maintain the infrastructure, increase capacity, and mitigate airport noise in
           surrounding communities.

           FAA’s policy is to fund the highest priority projects. To fund the highest priority
           projects each year, FAA—in cooperation with airport sponsors, 1 planning
           agencies (e.g., regional metropolitan planning organizations), and states—
           develops the Airport Capital Improvement Plan, a 3- to 5-year rolling plan for
           funding airport planning and development projects. Projects are assigned a
           1
               An airport sponsor is usually a public agency that owns the airport.
                                                                                                                       2


quantitative rating from 0 to 100—the higher the rating, the higher the project
priority. The quantitative rating is one factor that contributes to the selection of a
project. Qualitative factors that contribute to the selection of a project include, but
are not limited to, whether the sponsor has received the required matching, non-
Federal funding to complete the project or whether the airport has completed a
required environmental review.

FAA distributes two types of AIP grant funds: formula and discretionary.

    • Formula funds, often referred to as entitlements, are divided into 4 categories:
      primary airports (commercial airports with at least 10,000 enplanements 2 per
      year), cargo service airports, general aviation airports, and Alaska
      supplemental funds. 3 Entitlement funds can be used for AIP-eligible projects
      for airport capital improvement and repairs such as rehabilitating runways and
      acquiring aircraft rescue and firefighting equipment. For primary airports,
      terminal development can only be funded through the use of entitlement funds.

    • The discretionary fund includes the money not distributed under the
      entitlements. Despite its name, the discretionary fund includes three statutory
      set-aside programs that benefit (1) noise compatibility planning and
      implementation to mitigate airport noise; (2) the Military Airport Program
      (MAP) to convert former military airfields to civilian airports; and (3) certain
      reliever airports 4 that help provide relief from congestion and delays at nearby,
      busier commercial service airports.

In fiscal year (FY) 2006, FAA                         Figure. AIP Funding Allocations
provided approximately $3.5 billion                                  for FY 2006
in AIP funding that was allocated as                                                  Set-Asides
follows: $1.68 billion in entitlement                                                $369 million
                                                                                        (10%)
grants, $1.49 billion in discretionary          Entitlements
                                                $1.68 billion
grants, and $369 million in set-                   (48%)
asides (see figure). Under the FY
                                                                                              Discretionary
2007 continuing resolution, the AIP                                                               Funds
is funded at the FY 2006 level of                                                             $1.49 billion
                                                                                                  (42%)
$3.5 billion, a $200 million
reduction from the FY 2007
                                       Source: Data from FAA’s Office of Airport Planning and Programming
authorized level. With limited AIP
funding, FAA must focus AIP money on the highest priority projects nationwide.

2
    Enplanements are passenger boardings.
3
    Funds are apportioned for certain Alaska airports to ensure that Alaska receives at least as much as these airports
    were apportioned in FY 1980 under previous grant-in-aid legislation in accordance with Title 49 USC, Section
    47114(e).
4
    The reliever airports eligible for this funding must have certain characteristics, including, but not limited to, over
    75,000 annual operations and a runway with a landing distance of at least 5,000 feet.
                                                                                                                         3


RESULTS IN BRIEF
FAA’s policies are effectively ensuring that the highest priority rated projects are
funded in accordance with regulations. However, under Vision 100, 5 FAA can
fund—and is funding—lower priority rated projects (i.e., those rated under 40).
This means that other higher priority rated projects could go unfunded. We
reviewed 725 high priority rated AIP projects 6 for FY 2005 and 2006 in 4 regions
and found that FAA funded 563 projects, or about 78 percent. For the remaining
162 unfunded projects, or about 22 percent, FAA provided us with adequate
reasons as to why the projects were not funded. FAA’s reasons for not funding a
high priority rated project included the following: an environmental review
needing completion (which is required prior to FAA approval) or an airport being
in litigation over the project.

We also found that FAA is meeting its strategic goal of funding projects that can
enhance airport safety, security, and system capacity. For example, in FY 2006,
the highest percentage of AIP dollars spent (85 percent) and the number of
projects funded (83 percent) were for projects that could enhance safety and
security and system capacity.

While we found that the current set-aside funding requirements are being met, the
MAP can result in low priority projects being funded at an airport that meets
set-aside program requirements, while higher priority projects at other airports
could go unfunded. For example, in FY 2006, 21 of 46 MAP projects (46 percent
of projects with an estimated cost of $36.6 million) were rated under 40. One
project with a rating of 19 was funded at a cost of more than $2.2 million to
rehabilitate a parking lot.

Projected passenger traffic has grown, and the Department has committed to
accelerate major airport infrastructure projects by giving priority treatment and
resources to capacity projects. Therefore, FAA must ensure that MAP projects are
enhancing capacity and reducing congestion in metropolitan areas—which is the
intended goal of the MAP. If the projects do not meet this goal, then the funding
should be re-directed toward other projects at MAP airports that could potentially
enhance capacity and reduce congestion in metropolitan areas or projects that
enhance the overall National Airspace System, such as runway extensions, runway
rehabilitations, or other safety or capacity projects.




5
    Vision 100 – Century of Aviation Reauthorization Act, Pub. L. No. 108-176 (2003).
6
    In this report, we considered high priority rated projects to be those rated 70 and above or those that FAA refers to as
    “flags,” including congressional earmarks, noise mitigation, MAP, and runway safety projects. Projects rated 70 and
    above are the highest priority rated projects and are generally most consistent with FAA’s goals.
                                                                                                                    4


FINDINGS

FAA’s Policies and Procedures Are Effectively Ensuring That the
Highest Priority Projects Are Funded
FAA policy is to fund the highest priority projects that best meet the Nation’s
airport system needs. For the most part, we found that FAA policies and
procedures are effectively ensuring that the highest priority rated projects are
being funded. We also found that FAA is meeting its goal of funding projects that
can enhance airport safety, security, and system capacity.


Highest Priority Rated Projects Are Being Funded
We found that FAA has a well-established system that rates and prioritizes AIP
projects and includes both quantitative and qualitative factors. Projects are
assigned a quantitative rating from 0 to 100—the higher the rating, the higher the
project priority. Table 1 shows examples of project types and their ratings. In
fiscal years 2005 and 2006, FAA generally funded projects rated above 40. 7 FAA
allows funding of projects rated under 40 if they can be shown to significantly
enhance FAA’s goals, which include enhancing airport safety, security, or system
capacity.

                           Table 1. Examples of Project Types
                                and Their Rating Ranges
                              Project Type                                         Rating Range*
            Constructing a people mover                                                15-39
            Mitigating airport noise for residential areas                             40-70
            Installing runway lighting                                                 77-97
        *
         Individual ratings vary depending on the size and type of the airport.
         Source: FAA Order 5100.39A, “Airport Capital Improvement Plan.”

According to FAA, a numerical rating alone cannot account for most qualitative
factors that may affect the importance of an individual airport development
project. The numerical priority rating is intended to be used with qualitative
factors to select airport development projects. Qualitative factors that contribute
to the selection of a project include, but are not limited to, whether the airport
sponsor has: (1) received the required matching, non-Federal funding to complete
the project; (2) completed the required environmental review for the project; and
(3) complied with FAA regulations governing use of AIP funds.

7
    Each year, FAA determines a priority rating threshold level and creates a list of projects that meet or exceed the
    threshold level to be considered for discretionary funding. In fiscal years 2005 and 2006, the priority rating
    threshold level was 40.
                                                                                   5


We reviewed 725 high priority rated AIP projects for FY 2005 and FY 2006 in
4 regions and found that FAA funded 563 projects, or about 78 percent. For the
162 unfunded projects, or about 22 percent, FAA provided us with adequate
reasons as to why the projects were not funded. These reasons varied and
included the following: an environmental review needing completion (which is
required prior to FAA approval); an airport initially proposing a project but later
deciding not to fund it; an airport being involved in litigation over a project; or
funding being used for other emergency projects (such as responding to hurricane
damage).


Highest Priority Projects That Enhance Safety, Security, and System
Capacity Are Being Funded
Safety and security are the highest priority projects. Other major FAA policy
objectives are to maintain airport infrastructure and increase capacity. FAA’s goal
each year is to fund the highest priority projects that enhance: (1) airport safety,
such as improving runway safety areas; (2) security, such as installing airport
perimeter fencing; and (3) system capacity, such as providing AIP funding for
the O’Hare Modernization Program—a multi-phased, multi-year, and
multibillion-dollar project designed to reduce flight delays and increase capacity at
Chicago O’Hare International Airport and throughout the National Airspace
System.

We reviewed the types of projects that FAA approved to determine the extent to
which FAA was meeting its statutory requirements and policy goals by funding
the highest priority projects that enhance these three areas. FAA has eight
categories for rating projects that are eligible for AIP funding. As shown in
table 2, the highest percentage of AIP dollars spent (85 percent) and the number of
projects funded (83 percent) in FY 2006 were for projects that could improve
safety, security, or capacity, with the highest percentage of dollars spent
(60 percent) and number of projects funded (72 percent) in the standards and
reconstruction categories (standards and reconstruction projects ultimately
improve safety and security). Examples of standards projects include snow
removal equipment, deicing equipment, and perimeter fencing. Examples of
reconstruction projects include rehabilitating and repairing runways; these in turn
enhance safety and maintain airport capacity and infrastructure.
                                                                                                                  6



       Table 2. Percentages by Dollar, by Number of Projects
                  per Category Funded in FY 2006
         Category Type                    Percentage of               Percentage of the Number
                                         Dollars Spent on                of Projects in Each
                                          Projects in the                     Category
                                            Category
     Standards\a                               33%                                   46%
     Reconstruction\b                          27%                                   26%
     Capacity\c                                17%                                    4%
     Environment\d                             10%                                    5%
     Safety and Security\e                     8%                                     7%
     Planning\f                                 2%                                    8%
     Statutory Emphasis\g                     <1%                                    <1%
     Other\h                                    3%                                    4%
    \a To enable the airport to meet FAA standards, such as snow removal equipment.
    \b To rehabilitate and repair runways.
    \c To construct new runways and extend existing runways to increase an airport’s passenger, cargo, or
       flight operations and reduce delays.
    \d To conduct environmental reviews and noise mitigation projects.
    \e To support the safety and security of airport operations.
    \f To conduct planning studies, such as an airport master plan.
    \g To enable statutory projects such as runway grooving, friction treatment, and runway signs and markings.
    \h To obtain items such as people movers, parking lots, and training systems.
    Source: Data from FAA’s Office of Airport Planning and Programming


Current Funding Requirements Are Being Met, but MAP Funding
Levels and the Type of Projects Receiving Funds Need Re-Examining
Another area we reviewed under the AIP funding regiment was whether
discretionary funding thresholds for the set-aside programs were being met as
required by law. While we found that current set-aside funding thresholds are
being met, the MAP set-aside is funding lower priority rated projects, including
projects that typically are not eligible for AIP funding. Thus, the MAP set-aside
can result in lower priority rated projects being funded at an airport that meets
set-side program requirements, while higher priority projects at other airports
could go unfunded.

By statute, each year, FAA must spend an amount equal to:

 • 35 percent of its discretionary AIP funding on airport noise compatibility
   planning and implementation (to mitigate airport noise);

 • 4 percent of discretionary funds on the MAP (to convert former military
   airfields to civilian airfields with the goal of increasing capacity and easing
   congestion); and
                                                                                                                      7


    • 0.66 percent of discretionary funds at certain reliever airports (to provide relief
      from congestion and delays at nearby, busy commercial service airports).

Under the noise set-aside program, all airport sponsors can request discretionary
AIP funding for eligible airport noise compatibility planning and implementation
projects. However, only those airports in the MAP are eligible to receive MAP
set-aside funding. The reliever set-aside can be used for AIP-eligible projects at
certain reliever airports based on specific criteria.

In FY 2005 and FY 2006, FAA provided a total of $791.8 million for projects in
the three set-aside programs, including approximately $779.3 million in
discretionary funds and $12.5 million in entitlement funds.8 Our work shows that
all the projects in noise and reliever set-aside programs rank high enough in
FAA’s rating system to have been funded without the set-aside funding.

With respect to FY 2005 and FY 2006 funding for the set-aside programs, FAA
funded noise mitigation, reliever airport, and MAP projects at levels that exceeded
the amounts required by law; specifically, FAA:

    • Was required to spend about $300 million each fiscal year on airport noise
      mitigation projects 9 and spent about $342 million and $305 million in FY 2005
      and FY 2006, respectively. Because all of the airport noise mitigation projects
      funded ranked high enough in FAA’s rating system, they could have been
      funded without the statutory funding requirement.

    • Was required to spend about $6 million each fiscal year on projects at selected
      reliever airports. FAA provided about $49 million and $38 million to these
      airports in FY 2005 and FY 2006, respectively. All of the reliever set-aside
      projects were rated above 40 each year, including projects such as runway
      rehabilitations; this suggests that the set-aside program may not have been
      necessary to fund them.

    • Was required to spend about $34 million each fiscal year on projects at MAP
      airports. Up to 15 airports can participate in the MAP each year. FAA
      provided about $70 million and about $58 million in discretionary and
      entitlement funding to these airports in FY 2005 and FY 2006, respectively
      (see table 3). In addition to set-aside funds, MAP airports can also obtain
      entitlement funding and compete for additional discretionary funding.



8
    By statute, FAA is authorized to use entitlement as well as discretionary funds to meet its funding requirements for
    the noise set-aside program.
9
    FAA was required to spend about $301 million in FY 2005 and about $298 million in FY 2006 on noise set-aside
    projects.
                                                                                                8



                  Table 3. AIP Funding Provided to MAP Airports
                              in FY 2005 and FY 2006
                  Funding Type                                FY 2005              FY 2006
       MAP Set-Aside AIP Discretionary                       $34,518,503          $34,014,408
       Funds
       Additional AIP Discretionary Funds                    $18,691,928          $ 9,046,768
       Total AIP Discretionary Funds                         $53,210,431          $43,061,176
       AIP Entitlement Funds                                 $16,784,508          $15,010,087
               Total AIP Funding                             $69,994,939          $58,071,263
      Source: Data from FAA’s Office of Airport Planning and Programming

Also, under the current law, airports in the MAP can use AIP funds for projects
that are normally ineligible for AIP discretionary funding, such as fuel farms,
hangars, and parking lots. Projects of this type are also lower priority rated
projects (i.e., projects rated under 40) that would usually not be funded with
discretionary funds except for the MAP provision.

In FY 2005 and FY 2006, much of the total funding provided to airports in the
MAP was used for projects rated under 40. In FY 2005, 26 of 61 projects at MAP
airports (43 percent of projects with an estimated cost of $32.8 million) funded
were rated under 40. In FY 2006, 21 of 46 projects at MAP airports (46 percent of
projects with an estimated cost of $36.6 million) were rated under 40. One project
with a rating of 19 was funded at a cost of more than $2.2 million to rehabilitate a
parking lot.

Without the set-aside funding requirement and the provision to fund projects
normally ineligible for AIP funding, several of these projects would not have been
funded. FAA’s AIP Handbook, 10 which contains the policy and procedures used
to administer the AIP, states that the biggest obstacle to growth at MAP airports
may be inadequate airport facilities that are not normally eligible for AIP funds.

We recognize that there may be a need to fund projects that are not normally
eligible for AIP funds in order to contribute to the growth of MAP airports.
However, growth does not necessarily translate into enhancing capacity and
reducing congestion in metropolitan areas, which is the intended goal of MAP.

We are aware of only one successful conversion of a former military airfield to
civilian airfield—the Bergstrom Air Force Base conversion to the
Austin-Bergstrom International Airport in Austin, Texas.         However, this
conversion was unique in that the existing Austin airport had outgrown its
usefulness as a viable commercial airport, and the city of Austin needed a new

10
     FAA Order 5100.38C, “Airport Improvement Program Handbook,” June 28, 2005.
                                                                                    9


airport. The closure of Bergstrom Air Force Base provided an alternative for the
city of Austin to build a new airport that could enhance capacity and reduce
congestion in the Austin area.

Another military airfield, the Scott Air Force Base, was converted into a joint-use
military and civilian airfield with little, if any, success in meeting the goal of the
MAP. This air force base is co-located with the Mid-America St. Louis Airport
and shares airfield facilities under a joint-use agreement. The Mid-America St.
Louis Airport is located in Moscoutah, Illinois, 24 miles from St. Louis Lambert
International Airport in Missouri. Construction costs at the Mid-America St.
Louis airport totaled $210 million, with FAA providing over $128 million in AIP
discretionary funds. This conversion has been unsuccessful in attracting daily
commercial service, and the airport currently has only one airline providing
scheduled service twice per week to each of two cities.

Low priority rated projects accounted for 44 percent of projects at MAP airports
and 54 percent of funding for MAP airports in FY 2005 and FY 2006. Given
these significant amounts, FAA must ensure that MAP projects will contribute to
the MAP goal of enhancing capacity and reducing congestion in metropolitan
areas before it funds them. If the projects do not meet this goal, then the funding
should be re-directed toward other projects at MAP airports that could potentially
enhance capacity and reduce congestion in metropolitan areas or projects that
enhance the overall National Airspace System (e.g., runway extensions, runway
rehabilitations, or other safety or capacity projects).


RECOMMENDATION
We recommend that FAA monitor and track MAP projects to ensure that the MAP
is achieving its intended goal to enhance capacity and reduce congestion in
metropolitan areas. When MAP projects do not meet this goal, FAA should re-
direct the funding toward other projects at MAP airports that could potentially
enhance capacity and reduce congestion in metropolitan areas or projects that
enhance the overall National Airspace System. These include runway extensions,
runway rehabilitations, or other safety or capacity projects.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We submitted our draft report to FAA on August 23, 2007. We did not receive a
formal, written response from FAA on our draft report. We discussed the draft
report with the Director of the Office of Airport Planning and Programming and
his staff in September 2007. FAA expressed concern on how the report
                                                                                  10


characterized lower priority rated MAP projects. FAA stated that MAP projects
that are normally ineligible for AIP funds and lower priority rated, such as fuel
farms and hangars, are eligible for the MAP because military airfields typically
need these facilities if they are going to operate successfully as civilian airports.
In our report, we recognize that there may be a need to fund projects that are not
normally eligible for AIP funds in order to contribute to the growth of MAP
airports. However, growth at a MAP airport does not necessarily translate into
enhancing capacity and reducing congestion in metropolitan areas which is the
intended goal of the MAP.


ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, within
30 calendar days, please provide us with your formal, written comments regarding
our recommendation. If you concur with the recommendation, please indicate the
specific action taken or planned and the target date for completion. If you do not
concur, please provide your rationale. You may provide alternative courses of
action that you believe would resolve the issues presented in this report.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If I can answer any questions or be of further assistance, please feel free to
contact me at (415) 744-0420 or Scott Macey, Program Director, at (415)
744-0434.



                                         #



cc: FAA Chief of Staff
    Associate Administrator for Airports
    Anthony Williams, ABU-100
                                                                                    11




EXHIBIT. SCOPE AND METHODOLOGY
The objectives of our audit were to (1) evaluate the effectiveness of FAA’s policies
and procedures for ensuring that the highest priority airport improvement projects are
funded and (2) review the funding for the three AIP set-aside programs to determine
whether the funding levels were being met as required by law.

We performed our audit from August 2006 through May 2007, in accordance with
generally accepted Government Auditing Standards as prescribed by the Comptroller
General of the United States.

To evaluate the effectiveness of FAA’s policies and procedures for ensuring that the
highest priority airport improvement projects are funded, we reviewed and analyzed
reports, laws, regulations, orders, and policies and procedures pertaining to the
prioritization of AIP funds. This allowed us to identify AIP planning and program
requirements. We also interviewed FAA personnel at Headquarters and at field
offices and discussed various policies and procedures used to prioritize AIP funds.

We reviewed planning and programming documents for FY 2005 and FY 2006 to
determine whether the highest priority AIP projects were funded and to ascertain why
some were unfunded. For this analysis, we considered high priority projects to be
those projects rated 70 and above or projects that FAA refers to as “flags,” including
congressional earmarks, noise mitigation, MAP, and runway safety projects. Projects
rated 70 and above are the highest priority rated projects and are most consistent with
FAA’s goals. We visited five FAA regions in total. Four regions provided us with
information on why projects were not funded in FY 2005, and three of these regions
provided us with these data in FY 2006. One region did not provide us with
information for FY 2005 or FY 2006. Another region provided us with information
for FY 2005 but not for FY 2006. We reviewed a total of 725 projects.

To determine if FAA met the required level of set-aside funding, we analyzed the
lists of projects and airports that received funding under the set-aside programs in
FY 2005 and FY 2006. We also reviewed the priority rankings of the projects funded
to determine the degree to which lower priority rated projects were funded in the set-
asides.

We performed work at FAA Headquarters and five FAA regions: the Central Region
in Kansas City, Missouri; the Great Lakes Region in Des Plaines, Illinois; the
Southwest Region in Fort Worth, Texas; the Southern Region in College Park,
Georgia; and the Western-Pacific Region in Lawndale, California. We visited
selected field offices in each region (five field offices in total). We also met with
airport officials and industry representatives to better understand AIP funding issues.



Exhibit. Scope and Methodology
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
              Prioritization of Airport Improvement Program Funding

                              508 Compliant Presentation

Figure. Airport Improvement Program Funding Allocations for Fiscal Year 2006

In fiscal year (FY) 2006, FAA provided approximately $3.5 billion in AIP funding that
was allocated as follows: $1.68 billion in entitlement grants (or 48 percent) $1.49 billion
in discretionary grants (or 42 percent), and $369 million in set-asides (or 10 percent).

Source: Data from FAA’s Office of Airport Planning and Programming

Table 1. Examples of Project Types and Their Rating Ranges

Project Type: Constructing a people mover. Rating Range: 15-39.

Project Type: Mitigating airport noise for residential areas. Rating Range: 40-70.

Project Type: Installing runway lighting. Rating Range: 77-97.

Note: Individual ratings vary depending on the size and type of the airport.

Source: FAA Order 5100.39A, “Airport Capital Improvement Plan.”

Table 2. Percentages by Dollar, by Number of Projects per Category Funded in
Fiscal Year 2006

In the project category of Standards, 33 percent of AIP dollars were spent in fiscal year
2006. The percentage of projects funded in this category was 46 percent. (Note:
Standards projects enable the airport to meet FAA standards, such as snow removal
equipment.)

In the project category of Reconstruction, 27 percent of AIP dollars were spent in fiscal
year 2006. The percentage of projects funded in this category was 26 percent. (Note:
Reconstruction projects help rehabilitate and repair runways.)

In the project category of Capacity, 17 percent of AIP dollars were spent in fiscal year
2006. The percentage of projects funded in this category was 4 percent. (Note: Capacity
projects help construct new runways and extend existing runways to increase an airport’s
passenger, cargo, or flight operations and reduce delays.)

In the project category of Environment, 10 percent of AIP dollars were spent in fiscal
year 2006. The percentage of projects funded in this category was 5 percent. (Note:
Environment projects enable environmental reviews and noise mitigation projects.)

In the project category of Safety and Security, 8 percent of AIP dollars were spent in
fiscal year 2006. The percentage of projects funded in this category was 7 percent.
(Note: Safety and Security projects support the safety and security of airport operations.)
In the project category of Planning, 2 percent of AIP dollars were spent in fiscal year
2006. The percentage of projects funded in this category was 8 percent. (Note: Planning
projects enable planning studies, such as an airport master plan.)

In the project category of Statutory Emphasis, less than 1 percent of AIP dollars were
spent in fiscal year 2006. The percentage of projects funded in this category was less
than 1 percent. (Note: Statutory Emphasis projects enable statutory projects such as
runway grooving, friction treatment, and runway signs and markings.)

In the project category of Other, 3 percent of AIP dollars were spent in fiscal year 2006.
The percentage of projects funded in this category was 4 percent. (Note: Other projects
are to obtain items such as people movers, parking lots, and training systems.)

Source: Data from FAA’s Office of Airport Planning and Programming

Table 3. AIP Funding Provided to Military Airport Program (or MAP) Airports in
Fiscal Year 2005 and Fiscal Year 2006

In fiscal year 2005, MAP airports received $34,518,503 in MAP Set-Aside AIP
Discretionary Funds. In fiscal year 2006, they received $34,014,408.

In fiscal year 2005, MAP airports received $18,691,928 in Additional AIP Discretionary
Funds. In fiscal year 2006, they received $ 9,046,768.

In fiscal year 2005, MAP airports received a total of $53,210,431 in AIP Discretionary
Funds. In fiscal year 2006, they received a total of $43,061,176.

In fiscal year 2005, MAP airports received $16,784,508 in AIP Entitlement Funds. In
fiscal year 2006, they received $15,010,087.

In fiscal year 2005, the total AIP Funding for MAP airports was $69,994,939. In fiscal
year 2006, the total AIP funding for MAP airports was $58,071,263.

Source: Data from FAA’s Office of Airport Planning and Programming
